*

-7180

1

.

^

,

-• •

r i\. p 7nA n'(

No. 20Supreme Court, U.S.
FILED

In The

Supreme Court of tfje QEntteb States:

DEC 0 7 2020
OFFICE OFTHF CLERK

WILLIAM HUGH WILSON,
Petitioner-Appellant,
v.

United States Of America,
Plaintiff-Appellee.

On Petition for a Writ of Certiorari to the United States
Court ofAppeals For The Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

WILLIAM HUGH WILSON
REG. NO. 21604-040
FCI OAKDALE II
FED. CORR. INSTITUTION
P.O. BOX 5010
OAKDALE, LA 71463
Appearing Pro Se

RECEIVED
FEB - 9 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1

QUESTIONS PRESENTED
I.

Whether the United States Court of Appeals for the
Sixth Circuit erred in denying Wilson’s Motion for
Certificate of Appealability and Granting Relief.

PARTIES TO THE PROCEEDINGS
Petitioner-Appellant, William Hugh Wilson
(“Wilson”), was a criminal defendant in the United States
District Court for the Western District of Michigan,
Southern Division, in USDC Criminal
No.l:17-cr-00060-PLM-l; as a Movant in the United
States District Court for the Western District of Michigan,
Southern Division, in USDC Civil No.
1:19-cv-00578-PLM; and as Appellant in the United States
Court of Appeals for the Sixth Circuit (“Sixth Circuit”) in
USCA No. 20-1161. Respondent, United States of
America, was the Plaintiff in the District Court and
Appellee in the Sixth Circuit.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDINGS

1
11

TABLE OF CONTENTS .

111

APPENDIX TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

v

OPINION BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED ... 1
STATEMENT OF THE CASE

2

I.

The Proceedings Below

2

II.

The Factual Background

3

REASONS FOR GRANTING THE PETITION
The United States Court of Appeals for the
Sixth Circuit Erred in Denying Wilson’s
Motion for Certificate of Appealability and
Grant Relief...............................................
CONCLUSION

. 9

9
17

IV

APPENDIX TABLE OF CONTENTS
Page
Sixth Circuit Order in USCA No. 20-1161, dated July 10,
2020, denying Wilson’s Motion for Certificate of
la
Appealability
District Court Opinion denying Wilson’s Motion to Vacate,
Set Aside or Correct Sentence under 28 U.S.C. § 2255 and
Supplement Thereto
2a

/

TABLE OF AUTHORITIES
Cases

Page

Aron v. United States, 291 F.3d 708 (11th Cir. 2002) . 18
Barefoot v. Estelle, 463 U.S. 880, n. 4 (1983) ... 11,13
Brady v. United States, 397 U.S. 742, 748 (1970) ... 14
Estelle v. Gamble, 429 U.S. 97,106 (1976)

9

Gilbert v. California, 388 U. S. 263 (1967)

12

Glover v. United States, 531 U.S. 198, 203 (2001) . . 13
Haines v. Kemer, 404 U.S. 519, 520 (1972)
Halbert v. Mich., 545 U.S. 605 (2005)

9
15

Hohn v. United States, 524 U.S. 236, 248 (1998) .... 10
Lockhart v. Fretwell, 506 U. S. 364, 367-72 (1993) . . 12
McMann v. Richardson, 397 U. S. 759, (1970)

12

Santobello v. New York, 404 U.S. 257 (1971)
14
Slack, v. McDaniel, 529 U.S. 473 (2000) .... 10, 11,13
Strickland v. Washington, 466 U. S. 668 (1984) . 12,13
Wiggins v. Smith, 539 U.S. 510, 534 (2003)

13

Williams v. Taylor, 529 U. S. 362, 391 (2000)

13

Yarborough v. Gentry, 540 U. S. 1, 5 (2003)

12

VI

Statutes. Rules and Regulations
Page
21 U.S.C. § 841(a)(1)

3

21 U.S.C. § 843(b)

3

21 U.S.C. § 846

3

21 U.S.C. § 853

3

28 U.S.C. § 1254(1)

1

28 U.S.C. § 2253

10

28 U.S.C. § 2253(c)(3)

10

28 U.S.C. § 2255

3,8,9,10,11,12, 17,18, 20

USSG § 3El.l(a)

7

USSG §3E1.1(b)

7

Fifth Amendment of the United States Constitution .. . 1
Sixth Amendment of the United States Constitution . . 2

vn

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully submits this petition for a writ
of certiorari to review the judgment of the United States
Court of Appeals for the Sixth Circuit.
OPINION BELOW
The opinion of the United States Court of Appeals
for the Sixth Circuit is unpublished at Wilson v. United
States ofAmerica, (No. 20-1161) (6th Cir. July 10, 2020),
is attached in the Appendix at la.
STATEMENT OF JURISDICTION
Petitioner-Appellant timely appealed from the
district court’s Judgment in a Civil Case to the United
States Court of Appeals for the Sixth Circuit. On July 10,
2020, the Court of Appeals for the Sixth Circuit issued an
Order denying Wilson’s Motion for Certificate of
Apppealability. This Court has jurisdiction pursuant to
Title 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
Sixth Amendment of the United States Constitution
The Sixth Amendment to the United States
Constitution provides, in pertinent part:
In all criminal prosecutions, the accused shall
enjoy the right... to have the Assistance of
Counsel for his defense.

1

STATEMENT OF THE CASE
A.

The Proceedings Below

On January 26, 2017, a grand jury sitting in the
United States District Court for the Western District of
Michigan, Southern Division, returned a three (3) count
Indictment charging Wilson and Rodney Steven Martin,
co-defendant. See Doc. 20.1 Count 1 charged Wilson with
Felon in Possession of Firearms, in violation of 18 U.S.C.
§§ 922(g)(1) & 924(e); Count 2 charged Wilson with
Possession with Intent to Distribute Cocaine, in violation
of 21 U.S.C. §§ 841(a)(1) & (b)(1)(C); and Count 3
charged Wilson with Possession of Firearms in Furtherance
of a Drug Trafficking Crime, in violation of 924(c)(1)(A).
Wilson was also named in a Forfeiture Allegation pursuant
to 21 U.S.C. § 853. Id.
On June 1,2017, a Change of Plea Hearing was held
and Wilson pled guilty to Count 1 of the Indictment,
pursuant to a written Plea Agreement. See Docs. 46 & 49.
On October 18, 2017, Wilson was sentenced to a
term of 204 months’ imprisonment, 5 years of Supervised
Release, no fine or restitution, and a Mandatory Special
Assessment Fee of $100.00. See Docs. 69 & 70.
On November 2,2017, Wilson timely filed aNotice
of Appeal. See Doc. 72.
On July 16, 2018, the Sixth Circuit affirmed
Wilson’s appeal. See Doc. 89.

“Doc.” refers to the Docket Report in the United States
District Court for the Western District of Michigan, Southern
Division in Criminal No. 1:17-cr-00060-PLM, which is followed by
the Docket Entry Number.

2

On July 18, 2019, Wilson filed a Motion under 28
U.S.C. § 2255 to Vacate, Set Aside or Correct Sentence by
a Person in Federal Custody (“§ 2255 Motion”), which was
denied and dismissed by the District Court on December 5,
2019. See Docs. 113 &114.
On February 3,2020, Wilson timely filed a Notice of
Appeal re: denial of his § 2255 Motion. See Doc. 117.
On July 10, 2020, the Sixth Circuit issued an Order
denying Wilson’s Motion for Certificate of Appealability
(“COA”). See Doc. 130.
B.

The Factual Background

1.
Offense Conduct
In December 2016, a confidential informant
informed police that narcotics were being sold from a
residence located at 732 Hawley Street, Kalamazoo,
Michigan. A controlled buy for narcotics was made at the
residence on December 22,2016. Cocaine was purchased
from the residence. On December 22, 2016 the informant
identified Wilson as the person who sold the cocaine.
Another controlled buy was conducted on January 4,2017
where cocaine was again purchased from the residence.
The informant on January 4, 2017 identified the person
involved in the cocaine transaction as Mr. Martin.
On January 5, 2017, a search warrant was executed
at 732 Hawley Street. Wilson and co-efendant Martin were
found inside of the residence, al ong with a third individual
named Hundley. Wilson and Martin did not provide
statement to the police. Hundley agreed to speak with
police and advised the police that he lived at the residence
along with both Wilson and Martin. The owner of the
premises was also contacted and gave a statement to the

3

police that Mr. Wilson lived at the residence and had been
observed at the residence on previous occasions.
Upon entering the residence police officers observed
three firearms in plain view. A fourth firearm was located
hidden underneath a chair cushion in the living room. Five
grams of cocaine was discovered hidden inside of a can on
the dining room table. Hundley stated to police that he had
previously observed Wilson at die residence in possession
a shotgun. All of the firearms were located in the living
room area of the home. There was also $903.00 in plain
view on the dining room table, and $983 on Martin’s
person. Martin was also in possession of the "buy money"
- a pre-recorded $20.00 bill used in the January 4, 2017
purchase of cocaine.
Mr. Wilson’s relevant criminal history revealed:
• A May 3, 2002, DeliverylManufacture Less Than
50 Grams, 9th Circuit Court;
• A March 13,2006, delivery/manufacture less than
50 grams, 9th Circuit Court;
• An April 13,2007, delivery/manufacture less than
50 grams, 31st Circuit Court, Port Huron, Michigan;
• A second April 13,2007, delivery/manufacture less
than 50 grams, 31st Circuit Court, Port Huron, Michigan;
and
• A July 2,2012, possession with intent to distribute
less than 50 grams, 3rd Circuit Court, Detroit, Michigan.
2.

Plea Proceeding

On June 1,2017, Defendant pleaded guilty to Count
1 in exchange for the dismissal of Count 2. Under a plea
agreement, the Government agreed to recommend a
sentence at the low end of the Sentencing Guidelines
range, and to not oppose a reduction in Defendant’s

5

offense level for acceptance of responsibility. See Plea
Agreement Doc. 46.
3.

Presentence Report Calculations and
Recommendations

The Final Presentence Investigation Report (“PSR”)
calculated Defendant’s recommended range of sentence
under the Sentencing Guidelines as 262 to 327 months,
based on a total offense level of 34 and a criminal history
category of VI. The PSR set the offense level at 34 because
Defendant was deemed an “armed career criminal” under
the Armed Career Criminal Act (“ACCA”), 18 U.S.C. §
924(e). See U.S.S.G. § 4B1.4 (2016) (setting the offense
level at 34 for armed career criminals). Defendant had at
least three prior convictions for a “serious drug offense,”
as that term is defined in 18 U.S.C. § 924(e)(2)(A). All five
of his prior drug convictions were deemed as serious drug
offenses. See Mich. Comp. Laws § 333.7401(2)(a)(iv).
The PSR also determined that Defendant was not
eligible for any credit for acceptance of responsibility, but
Wilson’s counsel objected to that determination.
4.

Sentencing Proceeding

On October 18, 2017, Wilson was sentenced. The
Court sustained Wilson’s lawyer’s objection regarding his
acceptance of responsibility. Accordingly, the Court
reduced the total offense from level 34 to 31, resulting in
a sentencing range of 188 to 235 months. The Court
sentenced Wilson near the bottom of the guidelines range
to 204 months in prison, 5 years of Supervised Release, no
fine or restitution, and a Mandatory Special Assessment
Fee of $100.00. See Docs. 69 & 70.

6

5.

Appellate Proceeding

Wilson appealed his sentence, arguing that the
ACCA enhancement did not apply because his prior drug
convictions involved small quantities of drugs and, thus,
were not “serious drug offenses.” The Court of Appeals
rejected that argument and affirmed this Court’s judgment.
See United States v. Wilson, (No. 17-2324) (6th Cir. July
16,2018). It also noted that Defendant had “knowingly and
voluntarily” waived his right to appeal. Id
6.

Postconviction Proceeding

On July 18, 2019, Wilson filed a 2255 Motion. He
raised the following grounds for relief in his motion under
§ 2255 and his supplement thereto:
I. This court lacks subject matter jurisdiction over
this case;
II. The plea in this matter is inadmissible evidence;
and
III. [Defendant’s] prior state drug convictions do not
qualify as a serious drug offenses for (ACCA)
enhancement. See Docs. 99 & 102.
On December 5, 2019, the district court denied
Wilson’s 2255 Motion without an evidentiary hearing. See
Doc.113.
On February 3,2020, Wilson timely filed a Notice of
Appeal re: denial of his § 2255 Motion. See Doc. 117.
On July 10, 2020, the Sixth Circuit issued an Order
denying Wilson’s Motion for COA. See Doc. 130.

7

REASONS FOR GRANTING THE PETITION
As a preliminary matter,wi 1 s on respectfully requests
that this Honorable Court be mindful that pro se litigants
are entitled to liberal construction of their pleadings. See
Small v. Brock,, 963 F.3d .539 (6th Cir. 2020); Estelle v.
Gamble, 429 U.S. 97,106 (1976); and Haines v. Kemer,
404 U.S. 519, 520(1972).
The United States Court of Appeals for the
Sixth Circuit Erred in Denying Wilson7s
Motion for Reconsideration of Denial of
Motion for Certificate of Appealability.
Wilson contends that the Sixth Circuit erred denying
his Motion for COA, for the following facts and reasons:
The Sixth Circuit’s Order dated July 10, 2020,
denying Wilson’s Motion for COA states:
Wilson fails to make a substantial showing of the
denial of a constitutional right. Accordingly, the
application for a COA is DENIED.
See Appendix at la.
COA: Standard of Review
A COA will issue only if the requirements of 28.
U.S.C. § 2253 have been satisfied. ‘The COA statute
establishes procedural rules and requires a threshold
inquiry into whether the circuit court may entertain an
appeal.” Slack, v. McDaniel, 529 U.S. 473, 482 (2000);
Hohn v. United States, 524 U.S. 236, 248 (1998). This
threshold inquiry does not require full consideration of the
factual or legal bases adduced in support of the claims. In
fact, the statute forbids it. Under the controlling standard,
the Court must make a gateway examination of the district

j

9

U.S.C. § 2255. Where there has been a “denial or
infringement of the constitutional rights of the prisoner as
to render the judgment vulnerable to collateral attack, the
court shall vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant a new
trial or correct the sentence as may appear appropriate ”/<£
(emphasis added).
In this petition, Wilson waives his first two (2)
grounds he raised in his § 2255 Motion and only raises
ground three:
Whether Wilson’s prior state drug convictions
qualify as serious drug offenses for purposes of his ACCA
enhancement.
ARGUMENT
Wilson’s Prior State Drug Convictions Do Not
Qualify As Serious Drug Offenses for His ACCA
Enhancement.
In this case, Wilson’s prior Michigan convictions,
for delivery of a controlled substance, do not constitute
predicate offenses under the ACCA.
A.

Armed Career Criminal Act

The Armed Career Criminal Act (ACCA) imposes a
15-year mandatory minimum sentence on a defendant
convicted of being a felon in possession of a firearm who
has three prior convictions “for a violent felony,” including
“burglary, arson, or extortion,” or a “serious drug offense.”
18 U.S.C. 924(e). To determine whether a prior conviction
is a listed crime, courts apply the “categorical approach,”
asking whether the elements of the offense sufficiently
match the elements of the generic (commonly understood)
version of the enumerated crime. When a statute defines

10

multiple crimes by listing multiple, alternative elements, a
sentencing court must discern which of the alternative
elements was integral to the defendant’s conviction, by
employing the “modified categorical approach” and
examining a limited class of documents from the record of
a prior conviction. Mathis pleaded guilty to being a felon
in possession of a firearm. He had five prior Iowa burglary
convictions. Under the generic offense, burglary requires
unlawful entry into a “building or other structure.” The
Iowa statute (702.12) reaches “any building, structure, [or]
land, water, or air vehicle.” The district court applied the
modified categorical approach, found that Mathis had
burgled structures, and imposed an enhanced sentence. The
Eighth Circuit affirmed, reasoning that the Iowa statute’s
list of places did not establish alternative elements, but
rather alternative means of fulfilling a single locational
element. The Supreme Court reversed. Because the
elements of Iowa’s law are broader than those of generic
burglary, Mathis’s prior convictions cannot give rise to
ACCA’s sentence enhancement. The “underlying brute
facts or means” by which the defendant commits his crime
make no difference; even if the defendant’s conduct fits the
generic definition, the mismatch of elements saves him
from an ACCA sentence. Construing ACCA to allow a
sentencing judge to go further would raise serious Sixth
Amendment concerns because only a jury, not a judge, may
find facts that increase the maximum penalty. A statute’s
listing of disjunctive means does not mitigate the possible
unfairness of basing an increased penalty on something not
legally necessary to the prior conviction. See Mathis v.
United States, .136 S. Ct. 2243 (2016).
The section defines serious drug offenses as those
violations of state or federal drug law punishable by
imprisonment for 10 years or more. See 18 U.S.C.
924(e)(2)(A). Conviction under a statute which carries a
10-year maximum for repeat offenders qualifies, even
though the maximum term for first-time offenders is five

11

years. See United States v. Rodriquez, 533 U.S. 377, 380
(2008) It is the maximum permissible term which
determines qualification, even when discretionary
sentencing guidelines called for a term of less than 10
years, [United States v. Rodriquez, 533 U.S. at 390] or
when the defendant was in fact sentenced to a lesser term
of imprisonment. See United States v. Buie, 547 F.3d 401,
404 (2d Cir. 2008) To qualify as a predicate drug offense,
the crime must have been at least a 10-year felony at the
time of conviction for predicate offense. See McNeill v.
United States, 131 S.Ct. 2218, 2220 (2011).
As long as the attempt or conspiracy was punishable
by imprisonment for 10 years or more, the term “serious
drug offense” includes attempts or conspiracies to commit
a serious drug offense. See United States v. Trent, 161 F.3d
1046,1057 (10th Cir. 2014).
B.

Wilson’s Prior
Convictions

Michigan

State

Drug

In light of Mathis, Michigan’s statute criminalizing
delivery of a controlled substance is overbroad The Sixth
Circuit has held that Mich. Comp. Laws § 333.7401 is
divisible because its subsections list various alternative
crimes that require different levels of punishment. See
United States v. House, 872 F.3d. 748 (6th Cir. 2017);
United States v. Tibbs, 685 F. App’x 456, 463 (6th Cir.
2017). Here, Wilson argues that the Court erred in these
decisions and maintains that § 333.7401 is indivisible and
covers a broader swath of conduct than is covered by the
definition of “controlled substance offense” in the under
ACCA and the Sentencing Guidelines, making it
categorically not a predicate offense capable of supporting
the enhancement. There are two different reasons for
concluding Mich. Comp. Laws § 333.7401 is overly broad
that were not addressed in Tibbs or House.

12

First, Michigan’s schedules of controlled substances
include substances that are not included on the federal list
of controlled substances. Second, Michigan’s definition of
what it means to “deliver a controlled substance” includes
attempts to deliver, which necessarily includes solicitation.
1.

Michigan’s Schedules 1 and 2 are
broader than the federal government’s.

Wilson’s sentence was enhanced under ACCA
because the district court believed he had three
convictions for “serious controlled substance offenses.”
The Guidelines define a “controlled substance offense” as
follows:
MfA]n offense under federal or state law
punishable by imprisonment for a term
exceeding.one-year that.prohibits .the
manufacture,import,export,distribution,
or dispensing of a controlled substance
(or a counterfeit sibstance) or the
possession of a controlled substance
(or counterfeit substance) with intent
to manufacture,import,export,distribute,
or dispense".

See U.S.S.G. § 4B1.2.
The Guidelines do not define which substances are
“controlled.” Federal and state governments disagree about
which substances to include on the various schedules of
controlled substances. But that distinction often makes a
difference. Consider Michigan Complied Laws §
333.7401 (2)(e), which criminalizes possession with intent
to distribute schedule 5 controlled substances. Michigan
has chosen to include Loperamide (an anti-diarrheal
medication, like Imodium) on the list of schedule 5
substances. Mich. Comp. Laws § 333.7220(l)(a). Yet
thefederal government chose to remove Loperamide from
the list of controlled substances in 1982. See 47 FR

13

49840-02(1982).
United States v. Tate, 822 F.3d 370, 376 (7th Cir.
2016), is instructive as to how courts should resolve these
discrepancies. In Tate, the Seventh Circuit considered how
to define the undefined term “listed chemical” as a
precursor for manufacturing a controlled substance. The
court looked exclusively to the federal government’s listed
chemicals, found in 21 U.S.C. § 802(34) and (35) for that
answer. Because the defendant had been charged with
possessing a substance on the current list, the court
reasoned that his conviction was not a predicate offense
under the career-offender guidelines.
While Tate is informative, Mathis does not permit a
detailed case-by-case comparison, and so the key question
is whether the state schedule of controlled substances
includes substances not listed on the federal schedules.
Mathis instructs that whether a state conviction is a
predicate offense for purposes of the ACCA guidelines
turns on a comparison between the elements of the federal
and state offenses. The actual conduct the defendant was
charged with is irrelevant to this analysis. SzzMathis, 136
S. Ct. at 2248. The Court explained, “‘[elements” are the
‘constituent parts’ of a crime’s legal definition—the things
the ‘prosecution must prove to sustain a conviction.’” Id.
(quoting Black’s Law Dictionary 634 (10th ed. 2014)).
“Facts, by contrast, are mere real-world things—extraneous
to the crime’s legal requirements”; “[t]hey are
‘circumstance[s]’ or ‘event[s]’ having no ‘legal effect [or]
consequence.’” Id. (citing Black’s Law Dictionary 709).
Although the Mathis court used this distinction to
determine whether a state burglary statute is a “crime of
violence” under the career offender guideline, its teachings
extend to controlled-substance offenses. The Supreme
Court has required courts to look only at federal drug
schedules when determining whether possession of certain

14

drugs permits federal punishment, such as removal from
this country. SQQMellouli v. Lynch, 135 S. Ct. 1980 (2015).
And lower courts have applied the meanselements
distinction described in Mathis to determine whether a
state controlled-substance conviction is a predicate offen se
under the career offender guideline. See United States v.
Dozier, 848 F.3d 180,188 (4th Cir. 2017) (holding that the
defendant was properly classified as a career offender
under U.S.S.G. § 4B1.1 because his state
controlled-substance conviction was a “categorical match
of a generic controlled substance offense”); see also,
United States v. Hinkle, 832 F.3d 569, 570 (5th Cir.
2016)(concluding that a defendant’s conviction for
delivery of a controlled substance was “not a ‘controlled
substance offense’ within the meaning of the Guidelines”).
Applying those principles here, Michigan
criminalizes possession with intent to distribute more
substances than the federal govermnent does, and so
Wilson does not have three predicate convictions. The
Michigan-controlled-substance statute prohibits the
“manufacture, creation, delivery or possession with intent
to manufacture, create, or deliver a controlled substance.”
Mich. Comp. Laws § 333.7401. The statute bases its
penalties on the schedule of the substance, not the type of
substance itself. For example, the specific subsection of the
state statute under which Wilson was convicted penalizes
the conduct with respect to “[a] controlled substance
classified in schedule 1 or 2 that is a narcotic drug or a
drug described in section 7214(a)(iv).” Mich. Comp. Laws
§333.7401 (2)(a)(iv) .Mich. Comp.Laws§333.7214(a)(iv)
lists coca leaves and its derivatives. Thus, the elements of
an offense under Mich. Comp. Laws § 333.7401 are (1) the
manufacture, creation, or delivery or the possession with
intent to manufacture, create, or deliver, (2) a schedule 1
controlled substance or a schedule 2 controlled substance
that is a narcotic or a coca leaves or their derivatives.
Effective October 1, 2010, Michigan listed

15

Salvinorin A as a Schedule 1 controlled substance. Mich.
Comp. Laws § 333.7212(w). While the DEA has studied
scheduling this substance, it has not yet placed this
substance on the federal schedule at all. U.S. Dep’t Justice,
Drug Enforcement Administration, Lists of: Scheduling
Actions, Controlled Substances, Regulated Chemicals
(Dec. 2017).By including on the Michigan schedule a
substance not on the federal schedule, Michigan’s
controlled substance statute, on its face and according to its
elements, covers a broader range of conduct than the
federal definition of a controlled substance offense.
Therefore, Wilson’s May 3, 2002, Delivery Manufacture
Less Than 50 Grams, 9th Circuit Court; March 13, 2006,
delivery/manufacture less than 50 grams, 9th Circuit Court;
April 13, 2007, delivery/manufacture less than 50 grams,
31st Circuit Court, Port Huron, Michigan; and April 13,
2007, delivery/manufacture less than 50 grams, 3151 Circuit
Court, Port Huron, Michigan convictions used as predicate
ACCA “serious drug offense” convictions cannot serve as
a predicate offenses for purpose of ACCA enhancement
regardless of the actual facts underlying that conviction.
Therefore, it is important to remember that it is the
schedule, not the substance, which forms the basis of
conviction, according to the statute. The state court need
never have listed the actual substance of which Wilson was
in possession, to allegedly deliver so long as they proved
to the jury or to the court that the substance he possessed
was scheduled according to Mich. Comp. Laws §
333.7401(2)(a). Critically, the statutory language makes
clear that the prosecution need not prove the specific type
of substance possessed; only that the substance possessed
is included on schedules 1 or 2. The statute states, “a
person shall not manufacture, create, deliver, or possess
with intent to manufacture, create, or deliver a controlled
substance, a prescription form, or a counterfeit prescription
form.” This language is indivisible; a defendant still
violates the statute if he possesses small amounts of three

16

types of substances so long as each substance is included
in schedules 1 and 2. In other words, the type of drug
possessed is a means to commit the crime. Even if the
statute were divisible, the division, based on the foregoing
language, would limit Wilson’s conduct to “possess with
intent to manufacture, create, or deliver a controlled
substance, a prescription form, or a counterfeit prescription
form.” Because the possession with intent to deliver a
prescription form or a counterfeit prescription form falls
outside of the definition of controlled substance offense
located in the statute, his conduct is categorically not a
controlled substance offense for purposes of the U.S.S.G.
§ 2K2.1(a)(4)(A) enhancement.
2.

Michigan’s definition of “deliver” is
broader than the federal definition.

As the Fifth Circuit persuasively explained in
Hinkle, 832 F.3d at 569-77, a statute that includes offers to
sell narcotics within the definition of “delivery” is overly
broad. As this Court explained in Tibbs, “in Michigan,
defendants are generally charged with a particular form of
the various offenses listed in the statute—manufacture,
creation, or delivery or possession with intent to
manufacture, create, or deliver a controlled substance, a
prescription form, or a counterfeit prescription— and the
act they are charged with becomes an element of the
offense.” 685 F. App’x at 463 (discussing Mich. Comp.
Laws § 333.7401). But once the means has been tried,
courts must still ask how state courts define the actus reus
(e.g., delivery) charged. See Mathis, 136 S. Ct. at 2256
(“Here, a state court decision definitively answers the
question: [elements or means?]”).
For many years, Michigan courts have held that any
attempt to deliver a controlled substance constitutes a
delivery. See People v. Marji, 447 N.W.2d 835,838 (Mich.
Ct. App. 1989) (“[T]here is no lesser included offense of

17

“attempted delivery of cocaine.” Under the statute, any
attempts are subsumed in the actual offense of delivery.”);
People v. Wright, 253 N.W.2d 739, 740-41 (Mich. Ct.
App. 1977) (same). For that reason, evidence that the
defendant offered to sell cocaine is sufficient to sustain a
conviction for delivery of cocaine. See People v.
Alexander, 469 N.W.2d 10, 12 (Mich. Ct. App. 1991).
Because § 333.7401 criminalizes offers to sell narcotics, it
is broader than the definition of a “controlled substance
offense” as described in U.S.S.G. § 4B1.2. See Hinkle, 832
F.3d at 575-76.
As fully explained above, designating Wilson as an
ACCA offender was an error. That error was also apparent
based on the framework described in Mathis, Hinkle, and
Dozier. And the error substantially impacted Wilson’s
ultimate sentence; the ACCA designation nearly tripled his
guidelines range.
Hence, Wilson has shown violations of his
constitutional rights where jurists of reason could conclude
that the ACCA ground presented in his § 2255 Motion is
debatable, or wrong, and that they are adequate to deserve
encouragement to proceed further. As such, the Sixth
Circuit erred when it denied to issue Wilson a COA.
CONCLUSION
For the above and foregoing reasons, Wilson’s
petition for a writ of certiorari should be granted.

18

Respectfully submitted,

December _7_, 2020.
WILLIAM H. WILSON
REG. NO. 21604-040
FCI OAKDALE II
P.O. BOX 5010
OAKDALE, LA 71463
Appearing Pro Se

